CERTIFICATE OF WORD COUNT
NO. TBD
Radcliffe et al.,
Petitioner(s),
v.
Experian Information Solutions Inc., et al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the ROBERT RADCLIFFE ET AL.
PETITION FOR WRIT OF CERTIORARI contains 5588 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
March 16, 2020

SCP Tracking: Carpinello-30 South Pearl Street-Cover White

